July 24, 2002
Audit Report No. 02-024


Marketing and Resolution of Superior
Federal, FSB (New Superior)
                           TABLE OF CONTENTS


BACKGROUND                                                            2

RESULTS OF AUDIT                                                      5

DOCUMENTATION OF SECURITIES SALES COULD BE IMPROVED                  6

BILLING ERRORS ASSOCIATED WITH CONTRACT WITH FINTEK                   9

STATUS OF RECEIVERSHIP ASSETS                                        10

CORPORATION COMMENTS AND OIG EVALUATION                              10

APPENDIXES

   Appendix I:   Federal Deposit Insurance Corporation Improvement
                 Act of 1991                                         12
   Appendix II:  Scope and Methodology                               14
   Appendix III: Glossary                                            16
   Appendix IV: Effective Marketing of Conservatorship Assets and
                 Deposit Liabilities                                 17
   Appendix V:   Loss to SAIF Exceeds Preliminary Estimates          19
   Appendix VI: Loan Origination Operations Less Valuable than
                 Originally Anticipated                              20
   Appendix VII: Corporation Comments                                22
of any loss realized in the resolution, ensures adequate competition and fair treatment of offerors,
and prohibits discrimination in the solicitation and consideration of offerors. Section 123 also
requires the FDIC to maximize the preservation of the availability and affordability of residential
real property for low- and moderate-income individuals. Because we did not review the sales of
residential real property, this provision did not apply to this audit. Appendix I presents the
specific FDICIA requirements of Section 123.

The objectives of this audit were to evaluate: (1) the marketing efforts for the assets and principal
product groups of New Superior and (2) the resolution of New Superior conservatorship in
accordance with the least cost strategy. Specifically, we assessed whether the marketing efforts
complied with established DRR policies and procedures and with applicable laws. We also used
information obtained during our fieldwork to compare the most recent loss estimate for the
resolution of New Superior to that estimated in the least cost test performed in July 2001.
Additionally, we followed the status of the assets in the receivership and the progress made on
resolving them.

Appendix II of this report includes additional information on the scope of this audit and the
methodology used to answer the objectives. Appendix III of this report is a glossary of terms
that are used throughout the report. Appendixes IV through VI provide more detailed discussion
of specific parts of the audit.


BACKGROUND

In response to numerous financial institution failures from the mid-1980s through the early
1990s, the Congress passed FDICIA, codified at 12 USC 1811 et seq., to ensure the stability of
the financial banking sector and the deposit insurance funds. Section 123 of FDICIA requires
that the FDIC, as conservator or receiver, sell or dispose of assets in a manner that maximizes the
net present value return, minimizes the amount of any loss realized in the resolution, ensures
adequate competition and fair treatment of offerors, and prohibits discrimination in the
solicitation and consideration of offerors. Section 131 of FDICIA, codified at 12 USC 1831o,
incorporated provisions for Prompt Corrective Action (PCA). The PCA provisions of FDICIA
establish minimum capital requirements that assist the primary federal regulator in the regulation
of financial institutions.7 PCA provisions require more timely intervention by the primary
federal regulator to minimize losses to the deposit insurance funds. PCA requires that the
primary federal regulator close an institution within 90 days after determining that the institution
is "critically undercapitalized" and does not have an adequate capital restoration plan. (See

7
 Primary federal regulators are listed in the following table:
                    Agency                                            Type of Institution Regulated
FDIC                                                State non-member banks and state savings banks insured by BIF
Office of the Comptroller of the Currency           National banks
(OCC)
Federal Reserve Board (FRB)                         Bank holding companies and state member banks
Office of Thrift Supervision (OTS)                  Federal and state savings associations insured by SAIF and thrift
                                                    holding companies


                                                            2
Appendix I) In order to accomplish the objectives of these statutory provisions, DRR seeks
prompt and sufficient access to a failing institution in order to reduce or eliminate losses to the
insurance funds.

DRR’s mission is to plan and efficiently handle the resolutions of failing FDIC-insured
institutions and to provide prompt, responsive, and efficient administration of failing and failed
FDIC-insured institutions in order to maintain confidence and stability in the national financial
system.8 DRR’s resolution planning activities may occur simultaneously with the primary
federal regulator’s efforts to restore an institution to financial health. OIG analysis in a previous
report entitled, Least Cost Decision of Superior Bank and Liquidation of Remaining Receivership
Assets showed that from January 2000 to October 2001, 12 of 22 institutions for which DRR
performed on-site resolution activity did not subsequently fail. DRR is proactive in identifying
troubled insured depository institutions, and DRR may begin its resolution efforts, such as
valuing assets and identifying potential purchasers of these institutions, before an institution
fails.

Although PCA does not provide for the resolution process to begin until an institution is notified
by the primary federal regulator that it is critically undercapitalized, DRR and the FDIC’s
Division of Supervision9 (DOS) have recognized that in some cases a failing institution may
necessitate closure on an expedited basis. To that end, formal procedures have been established
by FDIC directive for the collection and sharing of information between DRR and DOS for
FDIC-insured institutions that appear likely to fail before the primary federal regulator notifies
the institution that it is critically undercapitalized. These formal procedures include provisions
that DOS staff seek the failing institution’s consent to allow DRR access to the institution and its
records to facilitate the resolution process of a failing institution. DRR has established a similar
information sharing arrangement with the OCC. DRR does not have a formal information
sharing arrangement with the OTS. On April 26, 2002, DRR sought assistance from the FDIC
Chairman in initiating a series of meetings with the other primary federal regulators with the goal
of developing an interagency Memorandum of Understanding (MOU). This MOU would allow
DRR staff to have earlier and broader access to problem institutions in order to develop
contingency plans in the event of a failure.

During the spring of 2001, OTS and the FDIC were working with Superior’s owners on a plan to
recapitalize the institution (capital restoration plan). OTS approved the capital restoration plan
on May 24, 2001, and Superior’s owners were required to implement the plan no later than
July 23, 2001.10 Because OTS, Superior’s primary federal regulator, had not determined that the
institution was critically undercapitalized and there was an approved capital restoration plan in
effect, there were no provisions under PCA for DRR to begin formal resolution procedures.
However, OTS allowed preliminary resolution work to start onsite. Superior’s owners failed to
implement the capital restoration plan on schedule, and on July 24, 2001, OTS notified Superior
8
  The FDIC insures the deposits of financial institutions and is responsible for resolving all failed institutions,
regardless of the failed institution’s chartering authority.
9
  As the result of a reorganization that became effective June 30, 2002, this office was merged with the Division of
Compliance and Consumer Affairs to become the Division of Supervision and Consumer Protection (DSC).
10
   Although the FDIC expressed concern over several aspects of the capital restoration plan and conveyed these
concerns to OTS prior to OTS's approval of the plan, the FDIC did not object to the OTS's approval of the final plan.


                                                         3
that the institution was critically undercapitalized.

On July 25, 2001, DRR presented its Failing Bank Case to the FDIC Board of Directors. This
case recommended that once OTS closed Superior, the Board approve a pass-through
receivership transaction11 and accept appointment as receiver and conservator as the least cost
resolution decision. It was DRR’s position in the Failing Bank Case that the conservatorship
approach provided DRR the necessary time to preserve the value of and market competitively the
deposit liabilities and assets of New Superior. The Board approved the case, and on
July 27, 2001, OTS chartered New Superior and appointed the FDIC as conservator. As
authorized in the Board resolution, the conservator hired a Chief Executive Officer (CEO) to run
the conservatorship operations. In addition, the conservator hired a financial advisor to assist in
the valuation and marketing of the assets of the conservatorship.

As of the date of failure, New Superior had approximately $1.5 billion of insured deposits at 18
branch offices. The FDIC DRR Franchise Marketing Branch marketed the deposit liabilities and
associated assets, including the branch facilities and an insurance subsidiary.12 In addition, the
FDIC sought to preserve value by ensuring that New Superior’s loan origination operations
headquartered in Orangeburg, New York, were not disrupted. The FDIC viewed disruption of
these operations as a risk to maintaining the value of the residual interest assets13 that were also
managed in Orangeburg. DRR, with assistance from New Superior personnel and third-party
contractors, sold other assets of the conservatorship. The conservatorship had assets with a book
value of $2 billion from which we reviewed a sample of $1.3 billion that included securities,
automobile loans, and other performing and subperforming loans.

On December 10, 2001, the FDIC and the OTS announced a settlement agreement with the
previous owners of Superior. The settlement agreement covered all matters arising out of the
operation and failure of Superior. Under the terms of the agreement, Superior’s previous owners
agreed to pay $100 million in cash and signed a promissory note for the remaining $360 million
to be paid over 15 years at no interest. The settlement monies will offset some of the eventual
loss to the Savings Association Insurance Fund (SAIF), which as of May 14, 2002 is estimated at
$763 million.14 The net loss to the SAIF after considering the present value of the settlement
amount is $440 million. The loss also includes the actual and projected recoveries and losses on
the assets and liabilities of the conservatorship and the receivership. The FDIC Division of

11
   A pass-through receivership is when all deposits, substantially all of the assets, and certain nondeposit liabilities
of the original institution instantly “pass through the receiver” to a newly chartered federal mutual association,
subsequently known as the “conservatorship.” In the case of Superior, the FDIC is the receiver of the assets and
liabilities that did not transfer to New Superior, the conservatorship.
12
   DRR sold as a package the deposits, some cash and cash equivalent accounts, branches of New Superior, and
Superior Insurance and Financial Services, Inc. In addition, the conservator passed to the acquirer of the deposits
the Home Equity Line of Credit (HELOC) loans. DRR marketed this package of deposits and assets using a secured
Web site to disseminate financial and descriptive information.
13
   These interests represent claims on the cash flows resulting from the securitization process that remain after all
obligations to investors and any related expenses have been paid, which normally include funds to build reserves
and pay loan losses, servicing fees, and liquidation expenses. When the loans for the pools originate, they bear a
stated interest rate. The securities are issued to the investors at a lower rate than the stated rate on the loans. The
difference between the rate that the loans are paying and what the pools are paying to investors is called the residual.
14
   The SAIF is the insurance fund affected by the failure of Superior.


                                                           4
Finance updates the projected loss as new information is received by DRR. The final loss to the
SAIF cannot be determined until all assets and liabilities are dispositioned. DRR terminated the
conservatorship and transferred all remaining assets and liabilities to the initial receivership as of
May 31, 2002.

The $182.6 million in assets transferred to the receivership at the time of closing of Superior
primarily remain in the receivership at this time. The most significant change to the balance in
the receivership prior to the termination of the conservatorship was the write-off of a $37.2
million account receivable from Superior’s holding company as a result of the settlement
agreement. A bond claim for $3.5 million was added to the receivership to recover losses from
the actions of the failed institution.


RESULTS OF AUDIT

DRR effectively marketed Superior’s deposit liabilities and assets to maximize the return to the
conservatorship. In all sales we reviewed, except for one security sale, DRR awarded the sales
to the highest bidders. We were unable to determine if DRR selected the highest bidder for the
one security sale, because of insufficiencies in the sale file documentation. We also noted other
instances where documentation required by DRR’s policies and procedures was missing from the
securities sales files. Maintaining complete sales files provides assurance that the FDIC fulfills
its obligation to maximize the return, minimize the loss, ensure adequate competition and fair
treatment of offerors, and prohibit discrimination in the solicitation and consideration of offerors
as required by Section 123 of FDICIA. The FDIC, as conservator, used contractors to assist in
the marketing of Superior’s liabilities and assets. Fintek, Inc. (Fintek), an affiliate of Superior,
was retained by the conservator to assist in the marketing of securities. We reviewed payments
made to Fintek by the conservator to determine if the payments were allowable under the terms
of the contract. We identified $28,043 in overpayments made by the conservator to Fintek.
Appendix IV contains more information about DRR’s effective marketing.

At the time of the failure, DRR recommended conservatorship as the least cost strategy for the
resolution of Superior based on the limited information available at that time. As discussed in
our audit report entitled, Least Cost Decision of Superior Bank and Liquidation of Remaining
Receivership Assets, DRR’s access to Superior’s records and personnel prior to the failure was
limited, partly based on the fact that Superior’s owners were in the process of implementing a
capital restoration plan approved by the primary federal regulator intended to address the capital
problems. The failure of Superior’s ownership to implement the approved capital restoration
plan severely limited the time available to consider other resolution strategies and was a major
reason that DRR did not complete key documentation15 supporting the recommended resolution
approach. Conservatorship gave DRR the time to develop information on the assets and deposit
liabilities of Superior and to market them effectively. By selecting the best bid for each asset
sale conducted, as well as the deposit liabilities sale, DRR has resolved the Superior

15
  DRR was unable to complete the Information Package and the Asset Valuation Review, two critical activities that
enable DRR to solicit bids from potential acquirers and compare the offers for determining the least costly
resolution. See Glossary for definitions of Information Package and Asset Valuation Review.


                                                        5
conservatorship in accordance with the least cost strategy selected at the time of the failure. If
DRR is successful in its efforts to establish MOUs with the other primary federal regulators and
gain earlier and broader access to failing institutions, then future resolution decisions can be
made with the best information available. In the case of Superior, earlier and broader access to
more current information may have improved DRR’s estimates of the potential loss from the
failure and its decision-making on continuing the loan origination operation in Orangeburg, New
York.

Additional access to the failing Superior would have provided DRR with more complete
information upon which to base its decisions about the proper resolution of Superior. If DRR
had been positioned to thoroughly review Superior’s records and operations prior to failure, DRR
would have had better information on which to estimate the loss and better information to use in
decision-making. Over the life of the conservatorship, the estimated loss to the SAIF has
increased from $550 million to $763 million, exclusive of the settlement with the owners of
Superior. This increase is primarily attributable to an increased loss on the sale of the residual
interest assets and a smaller premium received on the sale of the deposit liabilities. Both of these
estimates may have been improved by better access to the institution prior to failure. (See
Appendix V for a more detailed discussion.)

With better information, DRR also may have been able to avoid certain costs related to
continuing the loan origination operation in Orangeburg, New York. Because of the limited
information available at the time of the failure, the FDIC decided to continue operating the loan
origination activities at Orangeburg until a value could be assigned to the asset. While the FDIC
was able to sell the loan inventory created, the loan origination activities were expensive to
operate and in the end were not attractive to buyers and could not be sold. The costs of operating
the loan origination activities, along with the severance and retention bonus payments made to
loan origination employees who lost their jobs, increased the loss to the SAIF associated with the
failure of Superior. These additional expenses could be as much as $11 million. (See Appendix
VI for additional details.)

We have already addressed the need for DRR to have earlier access to failing institutions in our
previous audit report on the Least Cost Decision of Superior Bank and Liquidation of Remaining
Receivership Assets. Because DRR is seeking MOUs with the other primary federal regulators,
we are not making additional recommendations regarding access at this time.

We also tracked DRR’s progress to liquidate the assets transferred to the receivership at the time
of closing of Superior. Currently $152.3 of $182.6 million in assets transferred at closing
remains in the receivership.


DOCUMENTATION OF SECURITIES SALES COULD BE IMPROVED

Transaction files of securities sales did not contain all the support required to document the
completeness of the sales process. In particular, documentation of bidders solicited and security
valuations were missing from most files reviewed. We were able to determine in all but one case
that the highest bidder was selected. However, in future sales, DRR needs to ensure that there is

                                                 6
complete documentation of all securities sales. Maintaining complete sales files provides
assurance that the FDIC fulfills its obligation to maximize the return, minimize the loss, ensure
adequate competition and fair treatment of offerors, and prohibit discrimination in the
solicitation and consideration of offerors as required by Section 123 of FDICIA.

In April 1996, the Division of Depositor and Asset Services, a precursor of DRR, issued the
Office of Securities Transactions Procedures Manual. This manual documented the policies and
procedures for the sale of securities and related capital markets instruments by the Office of
Securities Transactions. The transmittal letter stated that the manual would supercede the Asset
Disposition Manual for sales of securities. This was the most current guidance that DRR was
able to provide for how securities sales were to be documented and conducted.

According to the Office of Securities Transactions Procedures Manual, DRR markets securities
to selected qualified bidders included in DRR’s database of bidders and typically sells the
securities by auction. DRR’s database includes information about the type of securities that the
bidder is interested in purchasing. Other securities buyers may contact the FDIC to express an
interest in purchasing securities and submit financial information to be assessed as qualified.
DRR also reviews the securities sales files for winning and second place bidders of previously
sold securities similar to those being offered for sale. DRR uses this information to select
between 5 and 15 potential bidders, depending on the type of security offered for sale. Once the
bidders are selected and approved, a notification of auction or a Dealer Bid Sheet is sent to each
bidder. The Dealer Bid Sheet includes information about the security being offered, including
bid instructions. DRR establishes a minimum sales price for each security that DRR will accept
based on various market conditions. After the bids are received, DRR prepares a bid summary
that includes all the bids received during the auction. If the bids received equal or exceed DRR’s
valuation amount, the highest bidder is awarded the security and the winning bid is denoted on
the bid summary. If DRR does not receive a bid that equals or exceeds DRR’s valuation amount,
DRR conducts another auction of the security at a later date, or seeks additional approval to
accept the best offer after careful consideration of market conditions.

Our sample included $27.8 million of securities sold from $122 million in total securities sales
as of January 4, 2002. This sample represented one security from each of the six sales conducted
during the period. Both DRR employees and the third-party contractor, Fintek, who assisted
with the sales, maintained the files documenting the sales of securities that were on the books of
Superior at the time of failure. All but one of our sampled files indicated that the security was
sold to the bidder offering the sales price that was the best value to the conservatorship. For the
other file, there was no bid summary sheet in the file, so it was not possible to determine whether
the highest bid had been accepted.

According to the Office of Securities Transactions Procedures Manual, the files documenting the
sales of securities should include, among other items:

•   Auction Notification Letter (or Dealer Bid Sheet),
•   Market data to substantiate the sales price, and
•   Completed bid summary.


                                                 7
Table 1: Review of Securities Sales Files

                                       Dealer         Documentation                       Bid    Number
                                        Bid             of Bidders     Documentation   Summary      of
   Security Number         Sale Date   Sheet             Solicited      of Valuation     Sheet   Bidders
 RFMSI 1993-S47-A-23      08/23/2001     Y                  N                N             Y         9
 GECMS 1996-14 A8         10/04/2001     Y                  N                N             Y        10
 GT 1998-4 A5             10/15/2001     Y                  N                N             Y         7
 FHR 2177 CA              10/18/2001    N*                  N                Y             Y        11
 CMSI 1996-1 M            10/25/2001     Y                  Y                Y             Y         9
 GECMS 1993-17 A11        11/08/2001     Y                  Y                N             N       Not
                                                                                                 available
                                       *
Source: OIG Analysis of DRR files          Only one security offered

As shown in the above table, there were weaknesses in the files for documentation of bidders and
valuations of securities offered for sale. The weaknesses in the valuation documentation were
partially mitigated when the bid summary sheet was available to ensure that the highest bid was
accepted on the sales transaction. In addition, the bid summary sheet presented the number of
bidders and their bids. Because there were several bids received for each security, the sales price
indicated the security sold at a market value. However, the required documentation needs to be
prepared at each step of the process, rather than at the end, to ensure bids are appropriately
solicited from qualified bidders and securities are properly valued before selection takes place.
From a review of DRR’s database of bidders, we determined that the winning bidders were
approved bidders, even though neither DRR nor the contractor documented how the bidders were
selected.

According to the minutes of the August 16, 2001 New Superior Board of Directors meeting, the
Board wanted DRR employees to supervise Fintek closely during the conduct of these securities
sales to ensure a competitive sales process was conducted and documented. Therefore, DRR
should have ensured that the requirements of the Office of Securities Transactions Procedures
Manual were completed as part of DRR’s oversight responsibilities. At a minimum, DRR
should have ensured that the following information was formally documented in the files:

•   Support for bidder selection and notification to bidders of sales to ensure adequate
    competition and fair treatment of bidders and to prohibit discrimination in the solicitation and
    consideration of bidders;
•   Valuations conducted prior to the sale to ensure that the FDIC maximizes the recovery and
    minimizes the loss to the SAIF by selling at true market prices; and
•   Bid Summary Sheets to document adequate competition and the appropriateness of the
    selections of winning bidders.




                                                      8
RECOMMENDATION

We recommend that the Assistant Director, Franchise and Asset Marketing Branch, DRR:

(1) ensure that securities sales transactions are valued and documented in accordance with the
requirements of the Office of Securities Transactions Procedures Manual.


BILLING ERRORS ASSOCIATED WITH CONTRACT WITH FINTEK

Fintek was overpaid $28,043 for professional fees and out-of-pocket expenses under its contract
to assist in the sales of securities on the books of Superior at the time of failure. Professional
fees of $3,741 were overbilled because of an undetected error in the supporting documentation,
and out-of-pocket expenses of $24,302 were submitted contrary to contractual requirements and
erroneously approved for payment by conservatorship personnel.

At the time of failure, Fintek, an affiliate of Superior, was providing investment management
advisory services to the institution. Despite this relationship with the failed institution, the FDIC
Legal Division agreed that the conservator could continue the relationship with Fintek under
similar contractual requirements. From July 27, 2001 through September 30, 2001, the contract
between New Superior and Fintek required Fintek to submit invoices showing the hours worked
and the discounted hourly rate for each employee providing services to the conservatorship. In
addition, Fintek was to be reimbursed for documented out-of-pocket expenses. During this
period, Fintek was paid $571,631 in professional fees. The spreadsheet submitted in support of
the billing for the period August 16, 2001 through August 31, 2001 contained an error, and the
conservator directed Fintek to resubmit both that period’s timesheet and the previous period’s
timesheet. However, the resubmitted amounts still did not agree to the support and we identified
an overpayment of $3,741. We determined that the out-of-pocket expenses submitted for the
period were allowable under the terms of the contract.

On October 24, 2001, by mutual consent of the parties, the contract was modified to provide for
a flat monthly fee of $250,000 for the period October 1, 2001 through December 31, 2001 (the
interim contract period). This amount was to be paid semi-monthly upon presentation of an
accurate invoice. This agreement was a flat monthly fee contract that did not allow for Fintek to
be reimbursed for out-of-pocket expenses in excess of the $250,000 flat monthly fee. However,
an employee of DRR working for the conservatorship directed that out-of-pocket expenses be
reimbursed, as that was the intent of the contract according to the President and CEO of New
Superior. According to the draft Board minutes of New Superior, the Board determined that a
flat monthly fee contract would cover all of Fintek’s expenses and could even provide funds to
establish a severance plan for its employees. We concluded that the conservatorship overpaid
Fintek by $24,302 in out-of-pocket expenses, because the payment of these expenses was in
addition to the $250,000 flat monthly fee. Fintek incurred these out-of-pocket expenses during
the interim contract period.

In mid-December, when the conservator recognized that Fintek’s services would be needed after
December 31, 2001, a case was prepared and presented to the New Superior Board of Directors

                                                  9
requesting that a maximum of $250,000 be authorized for an extension of Fintek’s services
through March 31, 2002. The Chairman of the New Superior Board of Directors approved this
extension on January 10, 2002. All amounts paid under this contract extension through
February 12, 2002 were in compliance with the terms.

To summarize, over the period July 27, 2001 through February 12, 2002, Fintek received
$1,398,521 in professional fees and $32,273 in reimbursed expenses for a total of $1,430,794.
Of this amount, we question $3,741 in professional fees and $24,302 in reimbursed expenses for
a total of $28,043, or 2 percent of the funds received. These questioned costs were discussed
with DRR management who agreed to determine the possibility of offsetting Fintek’s current
billing in order to recover these amounts.


RECOMMENDATIONS

We recommend that the Assistant Director, Franchise and Asset Marketing Branch, DRR, in his
capacity as the Chairman, New Superior Board of Directors:

(2) disallow the $28,043 in questioned professional fees and reimbursed expenses paid to Fintek
and seek reimbursement from the company to the conservatorship.

(3) review billings submitted by Fintek since February 12, 2002 and ensure that all payments
comply with the terms of the contractual agreement.


STATUS OF RECEIVERSHIP ASSETS

At closing, the pass-through receivership retained $182.6 million in assets from the failed
institution. As of May 13, 2002, there was $152.3 million in assets in the Superior receivership.
The primary activity in the account was the write-off of a $37.2 million receivable from one of
Superior’s holding companies that was written off as part of the settlement agreement. In
addition, a $3.5 million bond claim was added to the receivership, along with $3.4 million in
miscellaneous transfers between the conservatorship and receivership and adjustments to the
balances as a result of ongoing operations. From a review of DRR’s Credit Notation System, an
asset management system, we determined that DRR is continuing its determination of the
viability of recoveries by the receivership.


CORPORATION COMMENTS AND OIG EVALUATION

On July 15, 2002, the Director of DRR provided a written response to the draft report. The
response is presented in Appendix VII to this report. We also had subsequent discussions with
the Assistant Director, Marketing Section, DRR and the Assistant Director, Internal Review,
DRR to clarify the Division’s response.



                                                10
The Corporation agreed with all recommendations. DRR will take steps to ensure that, in the
future, documentation of how the list of potential bidders was compiled, notification to bidders
of sales, valuations, and bid summary sheets are maintained. Additionally, DRR will consult
with the Legal Division (Legal) to determine if there is a reasonable chance of collecting the
$28,043 in expenses paid to Fintek. DRR plans to request Legal’s determination by
July 26, 2002. Finally, by September 30, 2002, DRR will re-review billings subsequent to
February 12, 2002. The recommendations are resolved but remain undispositioned and open for
reporting purposes until we have determined that agreed-to corrective actions have been
completed and are effective.




                                               11
                                                                                     APPENDIX I

 FEDERAL DEPOSIT INSURANCE CORPORATION IMPROVEMENT ACT OF 1991
            FDIC PROPERTY DISPOSITION STANDARDS AND
                    PROMPT CORRECTIVE ACTION

Section 123 of the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA)
discusses the standards required in the disposition of assets. Relevant excerpts from Section 123
are found below:

               (E) DISPOSITION OF ASSETS. – In exercising any right, power, privilege, or
       authority as conservator or receiver in connection with any sale or disposition of assets of
       any insured depository institution for which the Corporation has been appointed
       conservator or receiver, including any sale or disposition of assets acquired by the
       Corporation under section 13(d)(1), the Corporation shall conduct its operations in a
       manner which—

                   (i) maximizes the net present value return from the sale or disposition of such
               assets;
                   (ii) minimizes the amount of any loss realized in the resolution of cases;
                   (iii) ensures adequate competition and fair and consistent treatment of
               offerors;
                   (iv) prohibits discrimination on the basis of race, sex, or ethnic groups in the
               solicitation and consideration of offerors; and
                   (v) maximizes the preservation of the availability and affordability of
               residential real property for low- and moderate-income individuals.


Section 38 of the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA)
requires prompt corrective action to protect the deposit insurance funds. Relevant excerpts from
Section 38 are found below:

 (a) RESOLVING PROBLEMS TO PROTECT DEPOSIT INSURANCE FUNDS.-

     (1) PURPOSE.-The purpose of this section is to resolve the problems of insured depository
         institutions at the least possible long-term loss to the deposit insurance fund.

     (2) PROMPT CORRECTIVE ACTION REQUIRED.-Each appropriate Federal banking agency
         and the Corporation (acting in the Corporation's capacity as the insurer of depository
         institutions under this Act) shall carry out the purpose of this section by taking prompt
         corrective action to resolve the problems of insured depository institutions.

 (b) DEFINITIONS.-For purposes of this section:

   (1) CAPITAL CATEGORIES.-

      (A) WELL CAPITALIZED.-An insured depository institution is "well capitalized" if it
          significantly exceeds the required minimum level for each relevant capital measure.



                                                  12
                                                                                    APPENDIX I


     (B) ADEQUATELY CAPITALIZED.-An insured depository institution is "adequately
         capitalized" if it meets the required minimum level for each relevant capital measure.

     (C) UNDERCAPITALIZED.-An insured depository institution is "undercapitalized" if it fails
         to meet the required minimum level for any relevant capital measure.

     (D) SIGNIFICANTLY UNDERCAPITALIZED.-An insured depository institution is
         "significantly undercapitalized" if it is significantly below the required minimum
         level for any relevant capital measure.

     (E) CRITICALLY UNDERCAPITALIZED.-An insured depository institution is "critically
         undercapitalized" if it fails to meet any level specified under subsection (c)(3)(A).

 (c) CAPITAL STANDARDS.-

    (3) CRITICAL CAPITAL.-

     (A) AGENCY TO SPECIFY LEVEL.-

          (i)       LEVERAGE LIMIT.-Each appropriate Federal banking agency shall, by
                    regulation, in consultation with the Corporation, specify the ratio of tangible
                    equity to total assets at which an insured depository institution is critically
                    undercapitalized.

          (ii)      OTHER RELEVANT CAPITAL MEASURES.-The agency may, by regulation,
                    specify for 1 or more other relevant capital measures, the level at which an
                    insured depository institution is critically undercapitalized.

(h) PROVISIONS APPLICABLE TO CRITICALLY UNDERCAPITALIZED INSTITUTIONS.-

                (3) CONSERVATORSHIP, RECEIVERSHIP, OR OTHER ACTION REQUIRED.-

                    (A) IN GENERAL.-The appropriate Federal banking agency shall, not later
                        than 90 days after an insured depository institution becomes critically
                        undercapitalized-

                         (i) appoint a receiver (or, with the concurrence of the Corporation, a
                         conservator) for the institution; or

                        (ii) take such other action as the agency determines, with the
                        concurrence of the Corporation, would better achieve the purpose of this
                        section, after documenting why the action would better achieve that
                        purpose.



                                                 13
                                                                           APPENDIX II

                           SCOPE AND METHODOLOGY

Scope

Our work included the evaluation of the DRR’s marketing efforts for the assets and
principal product groups of Superior Federal, FSB (New Superior). OTS appointed the
FDIC as conservator of New Superior on July 27, 2001. The FDIC, as conservator, was
responsible for the liquidation of New Superior assets and liabilities totaling over $2
billion that had not been transferred to the receivership. Our work also included an
attempt to evaluate the resolution of the New Superior conservatorship in accordance
with the least cost test strategy. Because DRR is not required to perform the least cost
test for the resolution of the conservatorship, we used information obtained during our
fieldwork to compare the most recent loss estimate for the resolution of New Superior to
that estimated in the least cost test performed in July 2001. Our scope did not include
loans held for sale by either Superior Bank, FSB (Superior) or New Superior. Our scope
also did not include the settlement of the proceeds received from the sale of the deposits
or assets.

To achieve the audit objective regarding the evaluation of the marketing efforts, we relied
on computer-processed data produced by the optimization software, What’s Best! We
assessed the reliability of these data by tracing bid information to the source documents.
Nothing came to our attention as a result of specified audit procedures that caused us to
doubt the reliability of the computer-processed data. During an earlier audit, as reported
in Audit of the Least Cost Test Model (Audit Report Number 01-025, issued
December 13, 2001), we tested the reliability of the What's Best software and found that
it operated as designed in selecting the winning bid. Therefore, no additional tests were
considered necessary.


Methodology

To evaluate DRR’s marketing of New Superior’s assets, we:

•   reviewed DRR’s Asset Disposition Manual, Resolution Policy Manual, Office of
    Securities Transactions Procedures Manual, Franchise Marketing Job Aides, and
    Standard Asset Value Estimation Instruction Manual;
•   randomly selected one security sale from each of the six securities sales that DRR
    conducted during the period July 27, 2001 through January 4, 2002, representing
    $27.8 million of $122 million in securities sold and assessed compliance with DRR’s
    policies and procedures;
•   reviewed all 18 asset pool sales that DRR conducted for the disposition of the
    automobile loan portfolio and a portfolio consisting of loans that have prior
    delinquencies and/or had fallen out of previous sale attempts by Superior (Scratch and
    Dent I), representing $81.1 million in book value and $77 million in book value,
    respectively, and assessed compliance with DRR’s policies and procedures;


                                            14
                                                                                  APPENDIX II
•   reviewed DRR’s sales of all operations from the Orangeburg, New York, location and
    assessed compliance with DRR’s policies and procedures;
•   evaluated DRR’s sale of the deposit franchise to Charter One;
•   interviewed DRR personnel in both Washington, DC, and Dallas, Texas, as well as
    contractor personnel responsible for the marketing of New Superior’s assets;
•   reviewed Franchise and Asset Marketing files;
•   obtained access to FDIC and third-party Web sites used during the marketing of
    assets;
•   reviewed cases submitted and approved by the New Superior Board of Directors for
    the sales of assets;
•   reviewed the draft minutes of meetings of the New Superior Board of Directors;
•   reviewed third-party valuations of the assets sold when available;
•   verified that the payments made by the conservatorship to an affiliated third party of
    Superior, Fintek, Inc., from July 27, 2001 through February 12, 2002 were allowable
    under the terms of the contracts covering the period of July 27, 2001 through
    March 31, 2002; and
•   evaluated the bids received and the selling price for each asset sale reviewed.

To compare the most recent loss estimate to the loss estimate at the time of failure, we:
• determined the effect of asset and deposit liability sales on the loss estimate,
• reviewed the terms of the settlement agreement with the owners of Superior to
   establish its effect on the loss estimate,
• reviewed FDIC press releases and transcripts from FDIC Board of Directors meetings
   for discussion related to settlement negotiations and loss estimate projections,
• obtained information from the FDIC Division of Finance on the most recent reserves
   established for the estimated loss associated with the failure of Superior, and
• traced significant variances between the Least Cost Test and the ultimate resolution of
   particular assets and deposit liabilities.

We also reviewed the status of assets in the receivership by accessing DRR’s Credit
Notation System and contacting receivership personnel.

We performed our work at the FDIC’s offices in Washington, DC, and Dallas, Texas,
from October 31, 2001 through May 10, 2002. In addition, we visited
HanoverTrade.com, located in Edison, New Jersey, on March 15, 2002 to review the
valuation of the Orangeburg, New York assets and the bidding process.
HanoverTrade.com was the financial services advisor hired by the conservatorship to
assist with the sales of the Orangeburg assets. We conducted the audit in accordance
with generally accepted government auditing standards.




                                            15
                                                                            APPENDIX III
                                       GLOSSARY

Asset Valuation Review (AVR)
Process that estimates the value of assets to the Federal Deposit Insurance Corporation
(FDIC) as Receiver of the failing institution. The AVR compares the book value of
assets to the estimated recovery values (ERV) to help determine the projected net loss to
the FDIC.

Conservatorship
A legal procedure and resolution strategy available to the FDIC, under authority provided
by FIRREA, for the interim management of financial institutions. Under the pass-
through receivership method, after the failure of a savings institution, a new institution is
chartered and placed under agency conservatorship; the new institution assumes certain
liabilities and purchases certain assets from the receiver of the failed institution. Under a
straight conservatorship, the FDIC may be appointed conservator of an open, troubled
institution. The conservator assumes responsibility for operating the institution on an
interim basis in accordance with applicable laws of the federal or state authority that
chartered the new institution. Under a conservatorship, the institution’s asset base is
conserved pending the resolution of the conservatorship. See 12 USC 1831o(h).

Deposit Premium
The amount a bidder is willing to pay above the value of an institution’s insured deposits.

Information Package (IP)
The Information Package provides a description, in financial terms, of the failing
institution's assets, liabilities, and business on a specific date with supporting schedules.
This product, developed by DRR’s Franchise Marketing Branch, is used as a marketing
tool to help potential acquirers decide if they are interested in a transaction with the FDIC
to resolve a failing institution.

Least Cost Resolution
A determination required under 12 USC 1823(c) for the FDIC to implement the
resolution alternative that is determined to be least costly to the relevant deposit
insurance fund of all possible resolution alternatives, including liquidation of the failed
institution.

Liquidation
The winding down of the business affairs and operations of a failed insured depository
institution through the orderly disposition of its assets after it has been placed in
receivership.

Office of Thrift Supervision (OTS)
The office within the U.S. Department of the Treasury that has responsibility for the
overall supervision, regulation, and examination of federally chartered thrift institutions.

Receivership
The legal procedure for winding down the affairs of an insolvent institution. See 12 USC
1831o(h).

                                             16
                                                                                     APPENDIX IV

                    EFFECTIVE MARKETING OF CONSERVATORSHIP
                         ASSETS AND DEPOSIT LIABILITIES

We selected approximately 65 percent of the book value of assets in the conservatorship and
reviewed the sales, including: 18 bulk loan pools of residential mortgage loans and auto loans,
and the residual interest assets associated with securitizations, securitization servicing rights, and
securities. We also reviewed the sale of the deposits. We determined that DRR sold the deposits
and certain assets to bidders in sales that maximized the value of the conservatorship. Each asset
and liability reviewed is discussed below, except for the sales of securities, which are discussed
in the body of this report.


Bulk Loan Sales Complied with Established Policies

Each of the 18 asset pool sales conducted by DRR for assets that transferred to New Superior
complied with established DRR policies and procedures and resulted in sales at the best price to
the conservatorship. One group of 10 asset pools sold for $64 million and another group of
8 pools sold for $8 million.

DRR has sold 18 pools of assets from Superior since the institution failed on July 27, 2001. One
sale of 10 pools was called Scratch and Dent I and consisted of loans that have prior
delinquencies and/or had fallen out of previous sales attempts by Superior. The other was the
sale of 8 pools of automobile loans, most of which had been written off the books of the failed
institution. Both asset sales were advertised using DRR’s electronic mailing list, Listserv, which
is open to any party interested in bidding on FDIC asset sales. Electronic mail messages were
sent out to over 1,600 interested parties on Listserv.

Each recipient was instructed to complete a confidentiality agreement in order to gain access to
asset information on a secured Web site. All parties accessing the secured Web sites had
completed confidentiality agreements. Both groups of sales complied with applicable DRR
policies and procedures. The conservatorship realized the maximum value for the assets sold
through Scratch and Dent I and the automobile loan sales.

Sale of Orangeburg, New York, Assets Complied with Established Policies

The conservatorship maximized the value received for the residual interest assets, the servicer
advances, and the servicing rights. The sales of these assets reduced the loss to the Savings
Association Insurance Fund (SAIF) from the failure of Superior. The conservatorship was
unable to sell either the loan origination or the loan servicing operations.

New Superior’s loan origination and servicing operations managed from Orangeburg, New York,
were packaged for sale separately from the other assets of the conservatorship. Four asset
packages were designed: loan origination operations, loan servicing operations, servicing rights,
and residual interest assets. Qualified bidders were invited to submit preliminary bids on each of
these asset packages or on any combination of packages. These preliminary bids were evaluated
and then the most competitive bidders were asked to submit final bids on the packages. No final
bids were received on either the loan origination or the loan servicing operations. However, the



                                                  17
                                                                                  APPENDIX IV


servicing rights and residual interest assets were sold to one bidder, whose combination bid of
approximately $463 million was selected as the best return to the conservatorship. We reviewed
the valuation of the asset packages, the bidding process, and the selection process and
determined they were in compliance with DRR policies and procedures. Both DRR employees
involved in the conservatorship operations and the third-party contractor hired to assist in the
resolution process applied DRR’s established policies and procedures for the marketing of the
assets managed from Orangeburg, New York.


Sale of Deposits to Charter One Complied with Established Policies

The sale of the deposits of the failed Superior complied with the policies and procedures
established by DRR. DRR contacted 382 potential bidders to determine their interest in
purchasing the deposits and certain assets of the failed Superior. Interested bidders who were
deemed qualified by the FDIC were given access to the Intralinks Web site, which contained
deposit and asset information about the failed institution. DRR received 19 bids from
9 interested parties and analyzed them using the optimization software, What’s Best! Charter
One, Cleveland, Ohio, submitted the only all-deposit bid with a premium of approximately
 $52.4 million. This was deemed the best bid submitted, and on October 31, 2001, the FDIC
announced the sale of the branches, the deposits, and $45 million in assets of the failed Superior
to Charter One.




                                                18
                                                                                                   APPENDIX V
                       LOSS TO SAIF EXCEEDS PRELIMINARY ESTIMATES

As of May 14, 2002, the loss to the SAIF for the failure of Superior was estimated at $763
million, nearly $213 million more than originally estimated. A smaller deposit franchise
premium and a lower sales price for the residual interest assets contributed to the increased loss
estimate. The final loss to the SAIF cannot be calculated until all assets are sold and all expenses
are paid.

Given the information available at the time of Superior’s failure, DRR estimated that the ultimate
loss to the SAIF for the failure would be between $426 million and $524 million. This estimate
was not made public at the time of failure, and the FDIC noted in the press release that the final
cost to the SAIF would be released upon final resolution of the conservatorship. By the time the
FDIC began negotiating with Superior’s owners, the loss was generally estimated at $550
million. The cash payment and the value of the promissory note received as part of the
settlement were intended to reduce the ultimate loss to the SAIF from the failure.

The Division of Finance (DOF) is currently reserving $440 million for the loss. However, this
value was determined after netting the $100 million cash payment from the owners of Superior
and the present value for the promissory note of $223 million. Therefore, the loss to the SAIF
from the Superior failure, not including the settlement amount is $763 million.

The primary factors in this increase to the loss estimate were the smaller-than-estimated
premium on the sale of the deposits and the greater-than-estimated loss on the residual interest
assets. These two factors account for approximately $196 million of the approximately $213
million increase in the loss estimate. There are also the $11 million in costs associated with
continuing loan origination operations, as well as $10 million in interest paid to the FDIC for
borrowings against the line of credit and $4 million in supervisory and insurance fees associated
with the newly chartered Superior Federal.

Because Superior was closed only 3 days after being declared critically undercapitalized, DRR
was not given its normal 90-day access to the institution prior to failure. Therefore DRR did not
have actual numbers to use to estimate the loss at the time of failure. Consequently, there was no
way to estimate accurately, at the time of the failure, the cost of the Superior failure. The Least
Cost Test16 is not designed to estimate the actual loss to the insurance fund; it merely compares
the relative position of each resolution option (least costly, more costly, and most costly). There
are no criteria that require DRR or DOF to estimate the actual loss to the insurance fund at the
time of failure. In a “normal” resolution, when the deposits and most assets have been sold
before closing, the estimates used in the Least Cost Test are more accurate. If the FDIC had a
more accurate loss estimate, then perhaps the settlement with Superior’s owners would have
been larger and the actual loss to the insurance fund would have been reduced.




16
     The Least Cost Test is used to analyze and compare bids submitted for failing institutions.




                                                            19
                                                                                      APPENDIX VI
                  LOAN ORIGINATION OPERATIONS LESS VALUABLE
                          THAN ORIGINALLY ANTICIPATED
DRR was unable to determine the value of the loan origination operations prior to Superior’s
failure because of the limited resolution activities conducted prior to the failure of the institution.
Therefore, DRR recommended and the FDIC Board agreed to continue the loan originating
operations until a value could be determined. This decision, based on the incomplete data
available at the time, drove future decisions and ultimately may have increased the cost of the
failure to the SAIF. If DRR had broader access to the failing institution earlier in the resolution
process, DRR would have been in a better position to recommend actions to the Board. DRR is
addressing the access issue and on April 26, 2002 sought assistance from the FDIC Chairman in
initiating a series of meetings with the other federal financial institution regulators with the goal
of developing an interagency Memorandum of Understanding (MOU). This MOU would allow
DRR staff to have earlier and broader access to problem institutions in order to develop
contingency plans in the event of a failure.

DRR was unable to sell the loan origination operations after 5 months because market conditions
and unit operating costs made it unattractive to buyers. For the period July 27, 2001 through
January 31, 2002, the net cost associated with the loan origination operations was $3.2 million
plus $7.9 million in payments owed to the loan production employees under the retention bonus
and severance plans.

As part of the Failing Bank Case submitted in support of conservatorship as the least costly
resolution option, DRR indicated that a liquidating receivership would have an adverse effect on
the value of the assets of Superior, especially the loan origination operations, the loan servicing
operations, and the residual interest assets. DRR believed that a conservatorship would allow
maximum time to market and preserve the value of these assets. To that end, the conservatorship
continued the loan origination and the loan servicing operations located in Orangeburg, New
York, until a value could be assigned to these operations.

On September 10, 2001, HanoverTrade.com, the financial services advisor hired by the FDIC,
submitted a report indicating that the loan servicing operations had a $0 value and the loan
origination operations had a value of between $0 and $5 million. However, HanoverTrade.com’s
recommendation of a sales strategy included the sale of these two operations concurrently with
the sales of the other two asset packages (residual interest assets and servicing rights) since that
would allow one bidder to bid on all assets. Preliminary bids on all four packages were due
October 25, 2001. At that time, a $2 million bid was received for the loan origination operations,
but no bid was received for the loan servicing operations. The loan servicing operations
continued to service the residual interest assets until they could be sold.

According to records provided by DRR, from the date of failure through October 31, 2001, net
origination costs were approximately $1.7 million. In addition, the New Superior Board of
Directors adopted a retention bonus plan at its August 16, 2001 meeting, which estimated
payments to the loan origination employees in the Alliance Funding Division of $5.6 million,
should the platform be shut down and the employees let go. Therefore, once the decision to
continue operating the loan origination platform was made, there was some incentive for the
conservatorship to pursue an ultimate sale to avoid the payment of the retention bonus.
However, it appears fairly clear, based on both HanoverTrade.com’s valuation and the expense



                                                  20
                                                                                   APPENDIX VI

report through October 31, 2001, that the cost of continuing the loan origination operations was
greater than the amount the conservatorship could expect to realize through the sale of the
operations.

On the final bid date of December 19, 2001, no bids were received on the loan origination
operations. DRR informed the FDIC Board of Directors, and the Board authorized DRR to
negotiate with the bidders for a negative bid of up to $5 million. This was DRR’s best estimate
of the costs associated with closing the loan origination operations at that time. It appears that
DRR viewed the operating expense costs as “sunk”, since either the conservatorship or the
receivership would have incurred these costs once the decision to keep the loan origination
operations open was made.

The conservatorship began closing down the loan origination operations in January 2002. From
the date of failure through the end of January 2002, net origination costs were approximately
$3.2 million. In addition, New Superior paid approximately $7.9 million in retention bonus and
severance payments to loan production employees as their jobs were terminated.




                                                21
     APPENDIX VII




22
                                                                            APPENDIX VII
DRR Response:

We concur with this recommendation. It should be noted that DRR management agreed
to look into the possibility of offsetting the questioned cost. As noted in the audit report,


       "over the period July 27, 2001 through February 12, 2002, Fintek received $1,398,521
       in professional fees and $32,273 in reimbursed expenses for a total of $1,430,794. Of
       this amount, we question $3,741 in professional fees and $24,302 in reimbursed
       expenses for a total of $28,043, or 2 percent of the funds received."

DRR on site personnel reviewed all billings for compliance with the terms of the
contractual agreement. Billings for out of pocket expenses were kicked back to Fintek.
However, John Broderick, who was hired as President by the New Superior Board,
negotiated the contract with Fintek. Mr. Broderick approved some of the out of pocket
billings based on his understanding of the contract. DRR will ask the Legal Division to
determine if there is a reasonable chance of collecting from Fintek for expenses that
were approved by Mr. Broderick.


OIG Audit Recommendation:

(1) We recommend that the Assistant Director, Franchise and Asset Marketing Branch, DRR,
    in his capacity as the Chairman, New Superior Board of Directors, review billings
    submitted by Fintek since February 12, 2002 and ensure that all payments comply with the
    terms of the contractual agreement.

DRR Response:

We concur with this recommendation. All billings were review by DRR personnel at the
time they were submitted. We will re-review all billings subsequent to February 12,
2002 by September 30, 2002.


cc:    James Wigand
       Stan Ivie
       Giovanni Recchia
       Susan Brown
       Herb Held
       Sandra White
       Susan Whited
       Dean Eisenberg
       Rick Hoffman
       Susan Koepp
       Robin King




                                             23
